TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Report on Audit of Billing System
                                  Internal Controls



                                         September 2005

                             Reference Number: 2005-1C-168




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 26, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                       Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

 SUBJECT:                    Report on Audit of Billing System Internal Controls
                             (Audit # 20051C0234)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s billing system as of
 September 21, 2004, to assure that the contractor’s billing system and related internal controls
 comply with applicable laws and regulations, are effective over compliance, and are adequate
 and operating effectively. Test procedures were applied from May through September 2004.
 According to the DCAA, the contractor’s overall billing system and related internal control
 policies and procedures are adequate. However, during the course of the examination, the
 DCAA noted matters involving the billing system and related internal controls that, although not
 considered significant deficiencies at this time, the DCAA believes should be communicated to
 the contractor’s management. These matters are detailed in the “Suggestion to Improve the
 System.” The DCAA examined only the overall billing system. Accordingly, the DCAA
 expresses no opinion on the contractor’s system of internal controls taken as a whole.
 The DCAA audit report was dated September 2004; however, we did not receive a copy of the
 report until August 2005. Neither the Internal Revenue Service nor the Treasury Inspector
 General for Tax Administration is shown on the DCAA report distribution list. We are
 transmitting the report to you to assist in the management of the contract and to enable the
 Internal Revenue Service to track any financial accomplishments derived from negotiations with
 the contractor based on results from the DCAA report.
                        Report on Audit of Billing System Internal Controls




The information in this report should not be used for purposes other than those intended without
prior consultation with the Treasury Inspector General for Tax Administration regarding their
applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                   2
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
